Elizabeth Harding Weinstein
Currently Homeless as per the Courts
Please direct all correspondence to:

Lizharding]1@mac.com 646-261-7685

 

Scott S. Harris, nant OCT 10 PU I2 97
Clerk of the Court
U.S. Supreme Court

1 First Street, NE ,
Washington, DC 20543 D \t SOs
RE: Docket No. 21A29 Writ of Injunction to Clarence Thomas

Mr. Harris:

In compliance with rule 22(4) I submit to you this letter to serve the attached 10 copies
Emergency Application For Writ Of Injunction To Vacate Unlawful Sua Sponte, Ex Parte,
Ex Post Facto Temporary Orders Of Protection And A “Guardianship” Order Petitioned By
Defendants, to Associate Justice Clarence Thomas of the United States Supreme Court, now
addressed. For judicial economy, I submit one full and complete copy of the petition and 834
pages of exhibits, and nine additional copies of the petition with links to all exhibits, as the full
and complete copy of the petition and exhibits is already on file with the Clerk’s office, with
electronic submission. All submissions must be taken in a light most favorable to a Pro Se litigant.

I call to your attention the gross impropriety of the Clerk’s Office thus far as partially
outlined in Appendix 46 of this Writ, including but not limited to the refusal to file documents
properly and timely, in violation of 18 U.S.C. §§ 2076, 2071, and the failure to perform the duties
enjoined upon you by oath and by law. I respectfully demand this ends forthwith. You are
compelled by lawful practice to contact me at the phone number or email above to address my
concerns and the clerk impropriety. To wit, Clerks of the U.S. Supreme Court willfully delay

docketing my filings, conceal my filings, do not properly stamp my filings, change the rules under

Page 3 of 4

 
which I file, refuse to upload appendices and refuse to provide the public access to the filed
appendices. Clerks repeatedly hang up on the public and Pro Se Plaintiff when we inquire about
how to gain access to the appendices. Clerks refuse to electronically serve me Orders of the Court
or upload the Orders onto the public site, and instead serve the Orders to an address only accessed

by my domestic violence abuser, Brian Stryker Weinstein.

I thank you in advance for your prompt, lawful attention to these issues.

 

Page 4 of 4
